                        OFFICE OF INSPECTOR GENERAL
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                           Incurred-Cost Audit of Grants Awarded to the
                             Michigan Community Service Commission




                                    OIG Audit Report No. 02-14
                                         June 28,2002



                                       Financial Schedules and
                                    Independent Auditors' Report
                                            For the Period
                                  October 1, 1997, to March 3 1,2001



                                             Prepared by:


                                    COTTON & COMPANY LLP
                                  333 North Fairfax Street, Suite 401
                                     Alexandria, Virginia 223 14




This report was issued to Corporation management on September 30, 2002. Under the laws and
regulations governing audit follow-up, the Corporation must make final management decisions on the
report's findings and recommendations no later than March 3 1, 2003, and complete its corrective actions
by September 30, 2003. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                                                                              CORPORATION
                                 Office of Inspector General                                  FOR NATIONAL
                       Corporation for National and Community Service
                                     Audit Report 02-14

    Audit of Corporation for National and Community Service Grants Awarded to the
                       Michigan Community Service Commission

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act, awards grants and cooperative agreements to State Commissions,
nonprofit entities, tribes and territories to assist in the creation of full and part time national and
community service programs. Currently, under the Act's requirements, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to State Commissions. The
State Commissions in turn fund and are responsible for the oversight of subgrantees who execute
the programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.

The Office of Inspector General (OIG) retained Cotton and Company to audit Corporation grants
to the Michigan Commission for AmeriCorps, Learn and Serve, Program Development and
Training, Promise Fellows, Disability, Make a Difference Day and Administrative costs from
October 1, 1997 through March 31, 2001. The audit's objectives were to determine whether (1)
the Commission's financial reports presented fairly the financial results of the awards; (2) the
internal controls adequately safeguarded Federal funds; (3) the Commission and its subgrantees
had adequate procedures and controls to ensure compliance with Federal laws, applicable
regulations, and award conditions; (4) costs were documented and allowable under the awards'
terms and conditions; and (5) the Commission had established adequate financial and program
management oversight of its subrecipients.

The Commission had total claimed costs of $13,823,399, of which the auditors questioned
$55,817 for allowability and $253,025 for support, approximately 2.2 percent of the total
claimed costs. Costs questioned for allowability represent amounts for which documentation
shows that recorded costs were expended in violation of regulations, or specific award
conditions, or costs that require interpretation of allowability. Costs questioned for support
require additional documentation to substantiate that the cost was incurred and is allowable. The
auditors concluded that the Schedules of Award Costs present fairly the costs claimed by the
Commission, except for the questioned and unsupported costs identified in the report, and the
effects of any adjustments.

OIG has reviewed the report and the work papers supporting the auditors' conclusions. We agree
with the findings and recommendations presented.

OIG provided the Commission and the Corporation a draft of this report for their review and
comment. Their responses are included in their entirety as Appendices A and B, respectively.



                                                                                          Inspector General
                                                                                          1201 New York Avenue, NW
                                                                                          Washington, DC 20525
                       OFFICE OF INSPECTOR GENERAL
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               INCURRED COST AUDIT OF GRANTS AWARDED TO THE
                  MICHIGAN COMMUNITY SERVICE COMMISSION

                                              Contents

Audit Scope

Summary of Results

Independent Auditors' Report

Consolidated Schedule of Award Costs

Exhibit A: Schedule of Award Costs for Award No. 94ASCMI023
   Schedule A-1 : Schedule of Award Costs - Michigan Department of Agriculture
   Schedule A-2: Schedule of Award Costs - Baraga-Houghton-Keweenaw Child
                    Development Board
   Schedule A-3: Schedule of Award Costs - City Year
   Schedule A-4: Schedule of Award Costs - Eastern Michigan University
   Schedule A-5: Schedule of Award Costs - Family Independence Agency
   Schedule A-6: Schedule of Award Costs - Northern Michigan Community Mental Health
   Schedule A-7: Schedule of Award Costs - Oakland University
    Schedule A-8: Schedule of Award Costs - Regents of University of Michigan

Exhibit B: Schedule of Award Costs for Award No. 95PDSM1022

Exhibit C: Schedule of Award Costs for Award No. 94CSMI022

Exhibit D: Schedule of Award Costs for Award No. 94LCSMI007
   Schedule D-1: Schedule of Award Costs - Alpena Community College
   Schedule D-2: Schedule of Award Costs - Onekama Education Foundation

Exhibit E: Schedule of Award Costs for Award No. 00ACSMI023

Exhibit F: Schedule of Award Costs for Award No. 00ASFMI023

Exhibit G: Schedule of Award Costs for Award No. 97EDSMIO18

Exhibit H: Schedule of Award Costs for Award No. 98APSMI023

Notes to Schedules of Award Costs- Summary of Significant Accounting Policies

Exhibit I: Schedule of Questioned Costs by Subrecipient

Independent Auditors' Report on Compliance

Independent Auditors' Report on Internal Control

Attachment: Status of Findings from the Pre-audit Survey

Appendix A: Commission's Response to Draft Audit Report

Appendix B: Corporation's Response to Draft Audit Report
                                                  AUDIT SCOPE

             At your request, we performed an incurred cost audit of costs claimed by the Michigan
    Community Service Commission (Commission) and its subrecipients for the period October 1, 1997,
    through March 3 1,200 1. Our audit covered financial transaction, compliance, and internal control testing
    of the following program awards funded by the Corporation for National and Community Service
    (Corporation):



    Program                                     Award No.               Award Period              Audit Period
    AmeriCorps
    Program Development
     Assistance and Training (PDAT)            95PDSMI022
    Administrative                             94SCSMI022
    Learn and Serve                            94LCSMI007
    AmeriCorps                                 00ASCMI023
    AmeriCorps                                 00ASFMI023
    Education Award                            97EDSMIO18*
    Promise Fellows                            98APSMI023*
    Promise Fellows                            99APSMIO23*
    Learn & Serve                              00LCSMI023
    Administrative                             0 1SCSMI022
    Disability Funds                           98DSCMI025
    Make a Difference Day                     99MDDMI009
    Education Award                            OOEDSMIO 18*

*           The grant is a fixed-amount award; the Commission is not required to submit Financial Status Reports
            (FSRs). Our audit scope was limited to testing Commission compliance with member eligibility and
            staffing requirements.


            Audit objectives were to determine i f

                    The Commission's financial reports presented fairly the financial results of the awards;

                    Internal controls were adequate to safeguard Federal funds;

                    The Commission and its subrecipients had adequate procedures and controls to ensure
                    compliance with Federal laws, applicable regulations, and award conditions;

                    Award costs reported to the Corporation were documented and allowable in accordance
                    with the award terms and conditions; and

                    The Commission had established adequate financial and program management oversight
                    of its subrecipients.
                                      SUMMARY OF RESULTS

Audit Report Summary

         Our audit report expresses a qualified opinion on the Consolidated Schedule of Award Costs
based upon the questioned costs detailed below and the following limitations on the scope of our audit.
At the request of the Office of Inspector General (OIG) we did not expand the scope of out audit as a
result of the audit findings, as would be required in accordance with auditing standards generally accepted
in the United States of America. Additionally, we were unable to obtain supporting documentation for
one subrecipient selected for detailed testing necessary to determine whether the amount of claimed costs
incurred for that subrecipient were fairly stated and we were unable to satisfy ourselves through other
auditing procedures. Accordingly, the costs incurred by this subrecipient as presented, were not audited
and therefore the OIG has instructed us not to question the claimed costs incurred by that subrecipient.

        Our report on compliance with laws, regulations, contracts and grants applicable to the audit of
the Consolidated Schedule of Award Costs disclosed five material instances of noncompliance that are
required to be reported under Government Auditing Standards. These findings are as follows:

        1.      Partial education awards were granted without adequate justification.

        2.      Members were paid as if hourly wage employees.

        3.      The Commission claimed costs that were either not allowable or for which no support for
                allowability was provided.

        4.      Financial reports were not submitted timely.

        5.      Subrecipients were not adequately monitored by the Commission.

        Our report on internal control disclosed three reportable conditions, as follows:

        1.      Financial monitoring of subrecipients was not performed by the Commission on a regular
                basis.

        2.      Documentation retention requirements were not communicated by the Commission to
                subrecipients.

        3.      During the subgrant award process the Commission did not adequately evaluate
                subrecipients' past performance and financial capability.

        We considered the first reportable condition to be a material weakness.

Costs Claimed

        The Commission claimed total costs of $13,823,399 for its Corporation grants from October 1,
1997, through March 3 1,2001. Of this amount, we questioned $55,817 for allowability and questioned
$253,025 for support, which approximates 2.2% of the total claimed costs. These questioned amounts
excluded questioned costs for education awards. Costs questioned for allowability are costs for which
documentation shows that recorded costs were expended in violation of the law, regulations, or specific
award conditions or costs that require interpretation of allowability by the Corporation. Costs questioned
for support require additional documentation to substantiate that the cost was incurred and is allowable.
         Grant participants who successfully complete terms of service under the AmeriCorps and Learn
and Serve awards are eligible for education awards from the National Service Trust. These award
amounts are not funded by Corporation grants, and are thus not included in claimed costs. As part of our
audit, however, we determined the effect of all member eligibility issues on these awards. Using the same
criteria described above, we questioned education awards of $21,862 for allowability, and $153,886 for
support.

        Costs and education awards were questioned for the following reasons:



                                                                                                   Education
   Questioned for Allowability                                                     Costs            Awards
   Unallowable member tuition costs claimed                                    $    1,240
   Unemployment insurance not required by state law                                 2,542
   Overpayment to subrecipient                                                      1,000
   Error in recording subrecipient costs                                            6,932
   Administrative costs in excess of grant ceiling                                    162
   Excess support claimed on fixed award                                           43,941*
   Members did not earn high school diplomas                                                        $  9,450
   Lack of compelling personal circumstances (partial awards)                                         12,412
   Total                                                                       $55.817              $ 21.862


        *The Comm~sslonreimbursed $34,481 of these funds to the Corporat~onIn December 2001(see E x h ~ bH).
                                                                                                         ~t



    Questioned for Support
   Missing member eligibility documentation
   Missing cost documentation
   Unreconciled amounts
   Total
        Details related to these costs and education awards appear in the Independent Auditors' Report.
 Cost and education award exceptions are summarized by award as follows:



                                     Costs                              Awards
                                  Questioned           Costs          Questioned          Awards
                    Costs             for           Questioned            for           Questioned
 Grant No.         Claimed        Allowability      for Support       Allowability      for Support    Exhibit
94ASCMI023                                            $253,020          $2 1,862         $139,711         A
95PDSMI022                                                  76                                            B
94SCSMI022                                             (20,273)                                           C
94LCSMI007                                              (1,264)                                           D
00ASCMI023                                               4,131                                            E
00ASFMI023                                               1,782                                            F
97EDSMIO 18                                                                                               G
98APSMI023                                                                                                H
99APSMI023
00LCSM1023
0 1SCSMI022
98DSCMI025
99MDDMI009
Total



  Compliance

          Our audit disclosed the following instances of noncompliance with Federal laws, applicable
  regulations, and award conditions:

                  Several subrecipients granted partial education awards to members based on compelling
                  personal circumstances that either did not meet the requirements of 45 Code of Federal
                  Regulations (CFR) 2522.230 or that were not documented as required.

          .       Several subrecipients paid members on an hourly basis, instead of fixed periodic stipend
                  payments.

          .       The Commission and its subrecipients claimed unallowable and unsupported costs.

                  The Commission and its subrecipients did not submit FSRs andlor closeout packages in a
                  timely manner.

          rn      Subrecipients did not comply with all program requirements.

  Internal Control

          0       The Commission did not perform regular financial site visits to its subrecipients.

                  The Commission did not ensure that its subrecipients complied with grant documentation
                retention requirements.
        .       The Commission did not adequately evaluate subrecipient past performance and financial
                capability during the subgrant award process.

        These matters are discussed in more detail in the Independent Auditors' Reports on Compliance
and Internal Control.

Exit Conference

         We held an exit conference with Commission representatives on July 19,2002. In addition, we
provided a draft copy of this report to the Commission and the Corporation for comment on August 2 1,
2002. Their responses, dated September 20,2002, and September 24,2002 respectively are included as
appendixes A and B to this report. The Commission provided specific comments on the compliance and
internal control report findings, we have included these in our report. The Corporation stated that it will
respond to all findings and recommendations when the audit report is issued, and it has reviewed the
findings in detail.

Follow-Up on Prior Audit Findings

         The Corporation's Office of Inspector General performed a Pre-Audit Survey of the Commission
in Fiscal Year 2000 and issued CNS OIG Report 00-25 dated January 21,2000. Our audit followed up on
the status of findings and recommendations from that report (see the Attachment).
                                                             auditors + advisors
1)ivll) 1 COTTONCI'A <  < ( ~ t h 4l   ( I IZKI I \    H U U IiRI)   ( 1'rj       < r L < I5A     4 All( i i i t l   w <,III I \I ll ( 1'4 ( 11   4 ( illil Rlhl     1 NO( I k \   (   /'A
                  H IOHMON CllA
           ~IATIIIIL                   (   C,FAI   4    5111t j u ) ~
                                                                    I)        (   PA   (   (Jht    4   COIt    IT)   Y WII\ON ( ll.A 4 $1           I<(J\I~ T I I A I C IIA




                                                                        June 28,2002


   Inspector General
   Corporation for National and Community Service


                                            INDEPENDENT AUDITORS' REPORT

           We audited costs claimed by the Michigan Community Service Commission for the awards listed
   below. These costs, as presented in the Consolidated Schedule of Award costs and the grant-specific
   Schedules of Award Costs (Exhibits A through H), are the responsibility of Commission management.
   Our responsibility is to express an opinion on the consolidated Schedule of Award Costs and Exhibits A
   through H based on our audit.



   Program                                                     Award No.                                      Award Period                          Audit Period*
   AmeriCorps                                                 94ASCMI023                                   08101194-12131100                       10101197-12131100
   Program Development
    Assistance and Training (PDAT)                            95PDSMI022                                   01105195-12131101                      10101/97-12131/00
   Administrative                                             94SCSM1022                                   0 1127194-12131/00                     10101197-12131100
   Learn and Serve                                            94LCSMI007                                   0910 1194-12131100                     10101197-12131100
   AmeriCorps                                                 00ASCMI023                                   08101100-07131/01                      0810 1100-03131/01
   AmeriCorps                                                 00ASFMI023                                   0910 1100-08131101                     0910 1100-03131101
   ducati ion- ward
   Promise Fellows
   Promise Fellows
   Learn & Serve
   Administrative
   Disability Funds
   Make a Difference Day                                     99MDDMI009                                    10120199-12131/99                      10120199-12131/99
   Education Award                                            OOEDSMIO 18""                                0910 1100-08131/01                     0910 1100-03131101

    *        The end of our audit period is the earlier of either the date of grant expiration or the date the last FSR was
             submitted by the Commission (either December 3 1,2000, or March 3 1,2001).
    **       This grant is a fixed-amount award; the Commission is not required to submit FSRs for these. Our audit
             scope was limited to testing compliance with member eligibility and staffing requirements.
        Except as described below, we conducted our audit in accordance with audit standards generally
accepted in the United States of America and Government Auditing Standards issued by the Comptroller
General of the United States. These standards require that we plan and perform the audit to obtain
reasonable assurance that the financial schedules are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting amounts and disclosures in the financial schedules. It also
includes assessing accounting principles used and significant estimates made by management, as well as
evaluating the overall financial schedule presentation. We believe that our audit provides a reasonable
basis for our opinion on costs claimed.

        The scope of our audit procedures was based on the audit planning memorandum submitted to
and approved by the Office of Inspector General (OIG), Corporation for National and Community
Service. At the request of the OIG we have not projected questioned costs to the remainder of the
population beyond the samples selected nor have we expanded the items tested based upon the results of
our procedures as required by auditing standards generally accepted in the United States of America.
Accordingly, we are not able to determine the effect on the Consolidated Schedule of Award Costs, if
any, had additional procedures been performed.

         The Consolidated Schedule of Award Costs includes claimed costs of $385,3 13 purportedly
incurred by one of the Commission's subgrantees, American Youth Foundation (AYF) consisting of
$20 1,892 for the fiscal year October 1, 1997 through September 30, 1998 and $l83,42 1 for the fiscal year
October 1, 1998 through September 30, 1999. We were unable to obtain supporting documentation
maintained by AYF and we were unable to satisfy ourselves through other auditing procedures as to
whether the amount of claimed costs incurred by AYF were fairly stated. Accordingly, the costs incurred
by this subrecipient were not audited, and therefore the OIG has instructed us not to question the claimed
costs incurred by that subrecipient.

        The Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs are
intended to present allowable costs incurred under the awards in accordance with Office of Management
and Budget (OMB) Circular A-87 and award terms and conditions. Therefore, these are not intended to
be complete presentations of the Commission's revenues and expenses.

         The Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
identify certain questioned education awards. These awards are not funded by Corporation grants and are
thus not included in claimed costs. As part of our audit, however, we determined the effect of all member
eligibility issues on these awards.

        In our opinion, except for questioned costs in the Consolidated Schedule of Award Costs and
except for the effects of such adjustments, if any, as might have been determined to be necessary had we
been able to expand our testwork related to the two limitations on the scope of our audit discussed above,
the financial schedules referred to above present fairly, in all material respects, costs claimed by the
Commission for the period October 1, 1997, to March 3 1, 2001, in conformity with OMB Circular A-87
and award terms and conditions.

        In accordance with Government Auditing Standards, we have also issued reports dated June 28,
2002, on our consideration of the Commission's internal control and on its compliance with laws and
regulations. These reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in considering audit results.
        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.


                                                    COTTON & COMPANY LLP


                                            - J .

                                                    Alan Rosenthal, CPA
                                                    Partner
                     MICHIGAN COMMUNITY SERVICE COMMISSION
                      CONSOLIDATED SCHEDULE OF AWARD COSTS
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS



                                                         Costs      Costs    Awards     Awards
                                                      Questioned Questioned Questioned Questioned
                             Approved     Claimed         for        for       for        for
 Award No.      Program       Budget       Costs      Allowability Support Allowability Support Exhibit
94ASCMI023 AmeriCorps       $17,219,455 $ 9,881,612     $ 3,439   $253,020    $21,862   $139,711   A
95PDSMI022 PDAT                 803,687     383,436                     76                         B
94SCSMI022 Administrative     1,803,686     996,224                (20,273)                        C
94LCSMI007 Learn & Serve        962,500     402,875       8,094     (1,264)                        D
00ASCMI023 AmeriCorps         3,759,602   1,363,191                  4,131                         E
00ASFMI023 AmeriCorps         1,138,075     381,809        343       1,782                         F
97EDSMI018 Education Award       15,000      15,000                                        9,450   G
98APSMI023 Promise Fellows      145,000     145,000      43,941     15,553                 4,725   H
99APSMI023 Promise Fellows      342,850     228,442
00LCSMI023 Learn & Serve        220,000      15,585
0 1SCSMI022Administrative       471,782       6,966
98DSCMI025 Disability Funds       6,690       1,341
99MDDMI009 Make a
            Difference Day        2,000       1,918
OOEDSMIO18 Education Award            0           0
Total                       $26.890.327 $13.823:399     $55.817 $253.025      $21.862
                                                                                               EXHIBIT A


                         MICHIGAN COMMUNITY SERVICE COMMISSION
                                SCHEDULE OF AWARD COSTS
                     CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                       AMERICORPS
                                  AWARD NO. 94ASCMI023
                            OCTOBER 1,1997, TO DECEMBER 31,2000


                                                 Claimed      Questioned for Questioned for   Reference1
                                                  Costs        Allow ability   Support          Note
Michigan Department of Agriculture               $ 559,385                       $ 33,273     Schedule A-1
American Red Cross                                 235,948
American Youth Foundation                          385,313
BHK Child Development Board (BHK)                  713,552                         26,724     Schedule A-2
Big BrothersISisters                                 20,892
Charlevoix-Emmett Intermediate School District     340,957
City Year                                           376,293                         2,285     Schedule A-3
Creston Neighborhood Association                     93,302
Eastern Michigan University                         330,159                        24,728     Schedule A-4
Ecumenical Project Save                             187,953
Family Independence Agency                        1,180,190        $ 1,240         28,612     Schedule A-5
Fitzgerald Public Schools                           245,875
Grand Rapids Service Corps                          198,896
Marquette County Health Department                  152,941
Michigan Communities in Schools                     337,951
Michigan Non-Profit Association                     432,244
Michigan State University                           120,309
Marquette-Alger Intermediate School District         10,295
Non-Violence KOPS                                   449,170
Northern Michigan Community Mental Health
 (NMCMH)                                                             2,199         22,337     Schedule A-6
Oakland University                                                                 63,824     Schedule A-7
Regents of University of Michigan                                                  5 1,237    Schedule A-8
Saginaw Public Schools
SOS Crisis Center
Underground Railroad
United Way Community Services
United Way of Genesee and Lapeer Counties
United Way of Saginaw County
United Way of Muskegon County
Commission Cost Adjustments
Timing Difference
Total

Approved Budget

Education Awards                                                                                 Note 1
1.   We questioned education awards as described in Schedules A-1 through A-8, as follows:



                                                    Questioned for     Questioned
                                                     Allow ability     for Support     Schedule
              Michigan Department of Agriculture                        $ 18,555         A- 1
              BHK                                       $ 2,363            12,650        A-2
              City Year                                   9,450                          A-3
              Eastern Michigan University                                 22,733         A-4
              Family Independence Agency                                  28,732         A-5
              NMCMH                                                        9,877         A-6
              Oakland University                         10,049           24,867         A-7
              Regents of University of Michigan                           22,297         A-8
              Total                                     $2 1.862        $139.71 1
                                                                                                             SCHEDULE A-1


                           MICHIGAN COMMUNITY SERVICE COMMISSION
                                  SCHEDULE OF AWARD COSTS
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    AWARD NO. 94 ASCMI023
                              OCTOBER 1,1997, TO DECEMBER 31,2000



                Michigan Department of Agriculture (MDA)                                            Note
                Approved Budget (Federal Funds)                                         $641.353

                Claimed Costs                                                           $559.385

                Questioned for Support: Missing Eligibility Documentation               $ 33.273         1

                Questioned for Support Education Awards: Missing
                Eligibility Documentation                                               $ 18,555         1



1.   We tested 15 MDA member files for eligibility. These files did not contain sufficient documentation to support
     the eligibility for 4 of the 15. We were unable to ascertain from these files either that the member was a U.S.
     citizen at least 17 years of age, or that the member received a high school diploma (or its equivalent). We were
     thus unable to verify that the four members were eligible in accordance with 45 CFR 2522.200. We questioned
     for support $33,273 of stipends paid to these members and $18,555 of education awards, as follows:



                        Program          Number of                                           Education
                          Year           Members           Reason            Stipends         Awards
                       1997-1998                2*        Diploma             $16,926         $ 9,450
                       1998-1999                1*        Diploma               8,463           4,725
                       1998-1999                1         Citizenship           7,884           4,380
                       Total                                                  $33,273         $18.555

     *   One file (in each program year) was also missing proof of citizenship.
                                                                                                    SCHEDULE A-2


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 94ASCMI023
                           OCTOBER 1,1997, TO DECEMBER 31,2000



       Baraga-Houghton-Keweenaw Child Development Board (BHK)                                      Notes
       Approved Budget (Federal Funds)                                               $761.979

       Claimed Costs                                                                 $713.552

       Questioned for Support
         Missing Eligibility Documentation
         Missing Payroll Documentation
       Total Questioned for Support

       Questioned for Allowability Education Awards: Lack of
       Compelling Personal Circumstances                                             $   2.363        3

       Questioned for Support Education Awards: Missing
       Eligibility Documentation



1.   We tested 18 BHK member files for Program Year 1997-2000 for eligibility. These files did not contain
     sufficient documentation to support the eligibility for 5 of the 18. We were unable to ascertain from these files
     that the member received a high school diploma (or its equivalent). In addition, 4 of the files were missing the
     member's birth certificate. We were thus unable to verify that the five members were eligible in accordance with
     45 CFR 2522.200. We questioned for support $25,459 of stipends paid to these members and $12,650 of
     education awards.

2.   BHK was unable to provide supporting documentation for $1,265 of payroll costs charged to the grant in May
     1998. A temporary employee processing the payroll during that period did not document names of the employees
     for whom labor costs were recorded. We were thus unable to test these costs to source documentation. We
     questioned for support $1,265 in accordance with OMB Circular A-122, Attachment B, paragraph 7,
     Compensation for Personal Services.

3.   BHK allowed one member to change her status from full-time to part-time after her first three months of service.
     According to correspondence in the member's file, she reduced her hours so that she could obtain an additional
     job to pay living expenses. The AmeriCorps Special Provisions, Terms of Service, require that changes in status
     must be approved within the first 3 months of the member's service. BHK allowed this member to earn a partial
     education award totaling $2,363. Circumstances under which a member may partially complete the program and
     earn an award are detailed in 45 CFR 2522.230. This provision specifically states that these circumstances do not
     include leaving a program to obtain employment (other than in specified instances). We questioned for
     allowability the partial education award of $2,363.
                                                                                                     SCHEDULE A-3


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 94ASCMI023
                           OCTOBER 1,1997, TO DECEMBER 31,2000




               Claimed Costs                                                     $376.293

               Questioned for Support: Missing Eligibility Documentation         $   2.285       1

               Questioned for Allowability Education Awards: Ineligible
               Members                                                           $   9.450      2



1.   We tested seven City Year member files for Program Year 1999-2000 for eligibility. One file did not contain
     sufficient documentation to support the eligibility of the member. We were unable to ascertain fiom this file that
     the member received a high school diploma (or its equivalent). We were thus unable to verify that the member
     was eligible in accordance with 45 CFR 2522.200. We questioned for support $2,285 of stipends paid to this
     member.

2.   Two City Year members earned their Program Year 2000-2001 education awards without first obtaining a high
     school diploma or its equivalent, which is required by 45 CFR 2522.200 before accepting an education award.
     City Year did not notify the Corporation that these members had not yet obtained their high school diplomas.
     Thus, the two members might have used education awards for which they were not eligible. We questioned for
     allowability $9,450 of education awards.
                                                                                                SCHEDULE A-4


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 94ASCMI023
                           OCTOBER 1,1997, TO DECEMBER 31,2000



       Eastern Michigan University (EMU)                                                       Notes
       Approved Budget (Federal Funds)                                            $341.053

       Claimed Costs                                                              $330.159

       Questioned for Support
        Missing Direct Cost Documentation
        Missing Eligibility Documentation

       Total Questioned for Support

        Questioned for Support Education Awards
         Missing Eligibility Documentation                            $17,923                    2
         Missing Member Timesheets                                      3,654                    3
         Lack of Compelling Personal Circumstances                      1.156                    4

       Total Questioned for Support Education Awards                              $ 22.733



1.   EMU was unable to provide supporting documentation such as vendor invoices and travel vouchers for $5,627 of
     other direct costs charged to the grant. We questioned for support $5,627 in accordance with OMB Circular A-
     2 1, subsection C.2, Factors Affecting Allowability of Costs. Unsupported costs are as follows:



                             Date              Description               Amount
                             12101/97          EMU Conference
                             06119/98          Five Star Rental Car
                             09/22/98          Apple Computer
                             06/30/99          Meeting Expenses
                             06/30/99          Travel
                             1O/3 1/00         Travel
                             0513 1/00         Travel
                             Total
     2. We tested 21 EMU member files for eligibility. These files did not contain sufficient documentation to support
        the eligibility for 10 of the 21. EMU could not provide member files for 2 of the 10, and we were unable to
        ascertain that the other 8 members were U.S. citizens at least 17 years of age. We were thus unable to verify that
        the members were eligible in accordance with 45 CFR 2522.200. We questioned for support $19,101 of stipends
        paid to these members, and $17,923 of education awards, as follows:



                           Program       Number of                                     Education
                             Year        Members            Reason        Stipends      Awards
                         1997-1998             1        Missing File      $ 7,089       $ 4,725
                         1997-1998             5        Citizenship         4,922         7,292
                         1998-1999             3        Citizenship         7,090         4,725
                         1999-2000             1        Missing File            0         1,181
                         Total                                            $19.101       $17.923



3.       EMU did not retain member timesheets for Program Year 1998-1999, as required by 45 CFR 2543.53. We were
         thus unable to verify that the seven members we tested for that year were eligible for the stipends and education
         awards they earned. Only one of these members earned a stipend and an education award, and these costs are
         questioned in Note 2 above for lack of citizenship documentation. The other Program Year 1998-1999 members
         tested earned only education awards, and we questioned these for support. The amount questioned is $3,654.

4.       EMU allowed six members to earn partial education awards totaling $15,243, but did not document the
         "compelling personal circumstances" needed to merit the award. Circumstances under which a member may
         leave the program early and earn an award are detailed in 45 CFR 2422.230; this provision also requires the
         program to document these circumstances. We were therefore unable to verify that these members were eligible
         to earn partial education awards. We questioned four of these awards ($12,338) in Note 2, above; one ($1,749) in
         Note 3; and questioned the remaining $1,156 for lack of support.
                                                                                                  SCHEDULE A-5


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 94ASCMI023
                           OCTOBER 1,1997, TO DECEMBER 31,2000



                                                                                                 Notes


       Claimed Costs

       Questioned for Allowability: Member Tuition Costs

       Questioned for Support
        Missing Direct Cost Documentation
        Missing Eligibility Documentation

       Total Questioned for Support

       Questioned for Support Education Awards
        Missing Eligibility Documentation                             $17,048
        Lack of Compelling Personal Circumstances                      11,684

       Total Questioned for Support Education Awards



1.   Claimed costs include payments for costs incurred for periods prior to October 1, 1997 (commencement date of
     audit period).

2.   FIA used Corporation funds to pay tuition costs for members. The courses taken were unrelated to the
     AmeriCorps program. We questioned for allowability tuition costs of $1,240 in accordance with OMB Circular
     A-87, Attachment A, subsection C. 1, as follows:



                                  Year            Paid To             Amount
                                2000        County of Kalamazoo        $ 160
                                200 1       County of Newaygo           1,080
                                Total                                  $1.240
3.   FIA was unable to provide supporting documentation such as vendor invoices, travel vouchers or member
     timesheets for $2,799 of direct costs charged to the grant. We questioned $2,799 for support in accordance with
     OMB Circular A-87, Attachment A, subsection C.1.j., which states that costs must be adequately documented to
     be allowable. Unsupported costs are as follows:



                        Date               Description               Amount
                      12/15/97      County of Newaygo                   $ 166
                      06118/98      GE Capital                           1,085
                      06/10/98      Michigan Employment                    55 1
                      0711 1/98     Rinehart, Michelle                     369
                      09130198      County of Iron                         378
                      1O/22/98      Allianz Life                           169 (Corporation share)
                      01/12/00      Beatty-Oliver, Trudy                    81
                      Total                                             $2.799


4.   We tested 26 FIA member files for eligibility. These files did not contain sufficient documentation to support the
     eligibility for 7 of the 26. We were unable to ascertain from these files either that the member was a U.S. citizen
     and at least 17 years of age, or that the member received a high school diploma (or its equivalent). We were thus
     unable to verify that the members were eligible in accordance with 45 CFR 2522.200. We questioned for support
     $25,8 13 of stipends paid to these members, and $17,048 of education awards, as follows:



                          Program         Number of                                    Education
                            Year          Members           Reason        Sti~ends      Awards
                        1997-1998              3*         Citizenship      $ 9,616       $ 6,059
                        1997-1998              2          Diploma            9,108         6,264
                        1998-1999              1          Diploma            7,089         4,725
                        Total                                              $25.813       $17.048

*    Two of these member's files (with $4,612 of stipends and $2,363 of education awards) also did not contain high school
     diplomas.


5.   FIA allowed six members to earn partial education awards totaling $14,047, but did not document the
     "compelling personal circumstances" necessary to merit the award. Circumstances under which a member may
     leave the program early and earn an award are detailed in 45 CFR 2522.230, which also requires that the program
     document these circumstances. We were thus unable to verify that these members were eligible to earn partial
     education awards. One of these awards ($2,363) was questioned in Note 4 above; we questioned for support the
     remaining $1 1,684.
                                                                                                      SCHEDULE A-6


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 94ASCM1023
                           OCTOBER 1,1997, TO DECEMBER 31,2000



      Northern Michigan Community Mental Health (NMCMH)                                               Notes
      Approved Budget (Federal Funds)                                                   $2 19.530

      Claimed Costs                                                                     $169.586

      Questioned for Allowability: Unemployment Insurance                               $    2.199       1

      Questioned for Support
        Missing Eligibility Documentation
        Missing Direct Cost Documentation

      Total Questioned for Support Costs                                                $   22.337

      Questioned for Support Education Awards:
       Missing Eligibility Documentation



1.   NMCMH paid unemployment insurance for its members, although Michigan state law does not mandate it.
     Grantees cannot charge the cost of unemployment insurance taxes to the grant, unless these are mandated by state
     law (AmeriCorps Provisions, AmeriCorps Special Provisions, Living Allowances, In-Service Benefits and
     Taxes). We questioned for allowability unemployment insurance costs claimed as follows:


                                              Program Year
                                              1997-1998         $ 966
                                              1998-1999            546
                                              1999-2000            687
                                              Total             $2.199



2.   We tested 12 NMCMH member files for eligibility. These files did not contain sufficient documentation to
     support the eligibility for 4 of the 12. We were unable to ascertain from these files either that the member was a
     U.S. citizen and at least 17 years of age, or that the member received a high school diploma (or its equivalent).
     We questioned for support $21,5 17 of stipends paid to these members and $9,877 of education awards, as
     follows:
                          Program         Number of                                  Education
                            Year          Members            Reason      Stipends     Awards
                        1997-1998               2         Citizenship*   $12,983      $4,4 15
                        1999-2000               2         Citizenship      8,534       5,462
                        Total                                            $2 1.5 17    $9.877

*    One member file also did not contain a high school diploma.


3.   NMCMH was unable to provide supporting documentation such as travel vouchers for $820 of travel costs
     charged to the grant. We questioned for support $820 in accordance with OMB Circular A-87, Attachment A,
     subsection C. 1.j., which states that costs must be adequately documented to be allowable. The unsupported costs
     are as follows:



                                        Date           Description        Amount
                                      08/29/97 S. Witt                     $444
                                      04/09/99 Trudeau Conference           376
                                      Total                                $820
                                                                                                            SCHEDULE A-7


                          MICHIGAN COMMUNITY SERVICE COMMISSION
                                 SCHEDULE OF AWARD COSTS
                      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                   AWARD NO. 94ASCMI023
                             OCTOBER 1,1997, TO DECEMBER 31,2000



       Oakland University                                                                                  Notes
       Approved Budget (Federal Funds)                                                     $671.588

       Claimed Costs                                                                       $526.560

       Questioned for Support
         Missing Eligibility Documentation
         Unreconciled Amounts

       Total Questioned for Support                                                         $ 63.824

       Questioned for Allowability Education Awards: Lack of
       Compelling Personal Circumstances                                                    $ 10.049         3

        Questioned for Support Education Awards: Missing
        Eligibility Documentation



1.   We tested 21 Oakland member files for eligibility. These files did not contain sufficient documentation to support
     the eligibility for 20 of the 2 1. We were unable to ascertain from these files either that the member was a U.S.
     citizen and at least 17 years of age or that the member received a high school diploma (or its equivalent). We
     were thus unable to verify that the 20 members were eligible in accordance with 45 CFR 2522.200. We
     questioned for support $61,405 of stipends paid to these members, and $24,867 of education awards, as follows:



                         Program        Number of                                       Education
                           Year         Members           Reason          Stipends       Awards
                       1997-1998              7         Citizenship       $22,094         $ 8,895
                       1998-1999              7         Citizenship        19,847          11,106
                       1999-2000              6         Citizenship        19,464           4.866
                       Total                                              $6 1.405        $24.867


*    Fourteen of these member files also did not contain high school diplomas (7 in 1997-1998,4 in 1998- 1999, and 3 in 1999-
     2000).
2.   Oakland could not reconcile its FSRs with its accounting detail in Program Years 1997-1999. The costs reported
     on the FSRs exceeded costs in the accounting records in both years. We questioned for support costs claimed in
     excess of costs incurred in accordance with OMB Circular A-21, subsection C.2, as follows:



                                             Program
                                               Year        Amount
                                          1997-1998          $1,981
                                          1998-1999             43 8
                                          Total              $2.4 19



3.   Oakland allowed seven members to earn partial education awards totaling $10,049, but the reasons documented
     did not constitute "compelling personal circumstances" necessary to merit the award. The members left the
     program for new jobs andlor to enroll in school. Circumstances under which a member may leave the program
     early and earn an award are detailed in 45 CFR 2522.230. This provision specifically states that these
     circumstances do not include leaving a program to enroll in school or to obtain employment (other than in
     specified instances). We questioned for allowability partial education awards of $10,049 as follows:



                                            Program
                                              Year          Amount
                                          1997-1998         $ 2,670
                                          1998-1999           5,271
                                          1999-2000           2,108
                                          Total             $10.049
                                                                                                            SCHEDULE A-8


                         MICHIGAN COMMUNITY SERVICE COMMISSION
                                SCHEDULE OF AWARD COSTS
                     CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                  AWARD NO. 94ASCMI023
                            OCTOBER 1,1997, TO DECEMBER 31,2000



              Regents of University of Michigan                                                      Note
              Approved Budget (Federal Funds)                                    $1.219,798

              Claimed Costs                                                      $1 .023.849

              Questioned for Support: Missing Eligibility Documentation          $    5 1.237         1

              Questioned for Support Education Awards: Missing
              Eligibility Documentation                                          $    22.297          1



1.   We tested 20 University of Michigan member files for eligibility. These files did not contain sufficient
     documentation to support the eligibility for 19 of the 20. We were unable to ascertain from these files either that
     the member was a U.S. citizen and at least 17 years of age andlor that the member received a high school diploma
     (or its equivalent). In addition, we noted that two of the 1997-1998 members were awarded partial education
     awards for which no personal compelling circumstances were documented. We questioned for support $5 1,237 of
     stipends paid to these members and $22,297 of education awards in accordance with 45 CFR 2522.200 and
     2522.230, as follows:



                      Program      Number of                                            Education
                       Year        Members               Reason            Stipends      Awards
                      1997-1998         5         Citizenship/Diploma      $14,490       $   7,707*
                                        1         Diploma                     1,877
                      1998-1999         4         Citizenship/Diploma        4,098
                                        3         Diploma                    9,456           6,714
                      1999-2000         3         CitizenshipIDiploma        5,921
                                        5         Diploma                   15,395         7,876
                      Total                                                $5 1.237      $22,297

*    Includes $2,982 of partial education awards for which compelling personal circumstances were not documented.
                                                                                                      EXHIBIT B


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                     PROGRAM DEVELOPMENT ASSISTANCE AND TRAINING
                                  AWARD NO. 95PDSMI022
                           OCTOBER 1,1997, TO DECEMBER 31,2000



                                                      Claimed       Questioned
                                                       Costs        for Support    Note
                       Salaries and Benefits          $ 92,484          $76          1
                       Contracts and Consultants       280,795                       1
                       Travel                           27,432
                       Equipment and Software           20,142
                       Goods and Services               34,665                        1
                       Timing Difference               (72,082)         -
                       Total                          $383.436          $76

                       Approved Budget



1.   The Commission was unable to provide supporting documentation such as vendor invoices for $76 of direct costs
     for health insurance costs charged to the grant in July 1998. We questioned for support $76 in accordance with
     OMB Circular A-87, Attachment A, subsection C. 1.j., which states that costs must be adequately documented to
     be allowable.
                                                                                                      EXHIBIT C


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    ADMINISTRATIVE
                                  AWARD NO. 94SCSM1022
                           OCTOBER 1,1997, TO DECEMBER 31,2000



                                                    Claimed         Questioned for
                                                     Costs            Support            Note
               Salaries and Benefits               $ 971,233           $(20,273)           I
               Contracts and Consultants              (18,149)
               Travel                                  21,528
               Equipment and Software                   1,745
               Goods and Services                     160,787
               Timing Difference                     (140,920)
               Total                               $ 996.224            U20.273)

               Approved Budget                     $1.803.686



1.   The Commission was unable to provide supporting documentation such as vendor invoices, travel vouchers, or
     employee timesheets for $(20,273) of direct credits to the grant. We questioned for support $(20,273) in
     accordance with OMB Circular A-87, Attachment A, subsection C.1.j., which states that costs must be adequately
     documented to be allowable. Unsupported costs are as follows:



                          Date       Description                            Amount
                          09130198 Salary and Wage Adjustments              $(20,678)
                          05/28/98 Social Security Tax                           209
                          04130198 Retirement - Classified Employees             196
                          Total                                             $(20.273)
                                                                                                           EXHIBIT D


                             MICHIGAN COMMUNITY SERVICE COMMISSION
                                    SCHEDULE OF AWARD COSTS
                         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                        LEARN AND SERVE
                                      AWARD NO. 94LCSMI007
                                OCTOBER 1,1997, TO DECEMBER 31,2000



                                                         Claimed      Questioned for    Questioned
                                                          Costs        Allow ability    for Support      Reference
     Alpena Community College                            $ 64,617          $1,000                       Schedule D-1
     Arab Community Center for Economic and Social
      Services                                               6,059
     Michigan State University Extension of Benzie
      County                                                23,838
     Creston Neighborhood Association                       13,491          3,259                          Note 1
     Eastern Upper Pennisular Community Foundation           5,342
     Eight Central Area Partnerships (EightCAP)              7,924
     Kalamazoo Public Education Foundation                      754
     Michigan 4-H Foundation                                56,052          3,673                          Note 1
     Northern Michigan Planned Parenthood                    2,656
     Northwest Council of Governments                        3,916
     Onekama Education Foundation                           28,549            162                       Schedule D-2
     Pathways to Healthy Living                             11,202
     City of Portage                                        2 1,725
     City of Romulus                                        15,000
     United Way Muskegon County                             39,900
     Winn Area Activity Center                              10,395
     Other Costs                                            39,676                         $(1,264)        Note 2

     Timing Difference
     Total Costs

     Approved Budget                                     $962.500



1.        The Commission's accounting system overstated costs for two subrecipients by $6,932. This error occurred when
          it made coding changes to its accounting system, and some amounts were not correctly credited. We questioned
          for allowability these costs in accordance with OMB Circular A-87, subsection C. 1. Overstated amounts were as
          follows:

                                      Description                          Amount
                                      Creston Neighborhood Association     $3,259
                                      Michigan 4-H Foundation               3,673
                                      Total                                $6.932
2.   The Commission was unable to provide supporting documentation for a $(1,264) adjustment to other purchased
     services in September 1999. We questioned for support $(1,264) in accordance with OMB Circular A-87,
     Attachment A, subsection C.1 .j., which states that costs must be adequately documented to be allowable.
                                                                                                  SCHEDULE D-1


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 94LCSMI007
                           OCTOBER 1,1997, TO DECEMBER 31,2000



                 Alpena Community College                                                Note
                 Approved Budget (Federal Funds)                             $7 1.700

                 Claimed Costs                                               $64.617

                 Questioned for Allowability: Commission Overpayment         $ 1.000         1



1.   The Commission paid Alpena $22,416 for Program Year 1998, $1,000 more than the $2 1,416 Federal Share
     reported on its FSR for that year. The Commission found this overpayment during the grant closeout process, and
     Alpena refunded this amount in April 2002. The Commission's claimed costs as of December 3 1, 2000, have not,
     however, been adjusted for this amount. We questioned $1,000 in accordance with OMB Circular A-87,
     Attachment A. subsection C. 1.
                                                                                                SCHEDULE D-2


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 94LCSMI007
                           OCTOBER 1,1997, TO DECEMBER 31,2000

                                                             - -




                 Onekama Education Foundation                                          Note
                 Approved Budget (Federal Funds)                          $53.500

                 Claimed Costs

                 Questioned for Allowability: Commission Overpayment      $    162        1



1.   Onekama claimed administrative costs that exceeded the allowable amount by $162. The Program Year 1999
     Corporation award to Onekama limited the maximum administrative cost allotment to 2.6% of total Corporation
     funds. Onekama claimed total program year costs of $17,500, which included administrative costs of $617. We
     questioned for allowability the $162 difference between allowable administrative costs of $455 ($17,500 x
     .026%) and the $6 17 claimed.
                                                                                                          EXHIBIT E


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                      AMERICORPS
                                 AWARD NO. 00ASCMI023
                             AUGUST 1,2000, TO MARCH 31,2001



                                                                   Claimed         Questioned
                                                                    Costs          for Support        Note
       BHK
       Charlevoix-Emmett Intermediate School District
       City Year
       Michigan State University
       Regents of University of Michigan
       United Way Community Services
       United Way of Genesee and Lapeer Counties
       Timing Difference
       Total

       Approved Budget



1.   We tested seven City Year member files for eligibility. Its files did not contain sufficient documentation to
     support the eligibility for one of the seven. We were unable to ascertain from the file that the member was a U.S.
     citizen and at least 17 years of age. We questioned for support $1,815 of stipends paid to this member in
     accordance with 45 CFR 2522.200.

2.   We tested seven University of Michigan member files for eligibility. Its files did not contain sufficient
     documentation to support the eligibility for one of the seven. We were unable to ascertain from the file that the
     member received a high school diploma (or its equivalent). We questioned for support $2,3 16 of stipends paid to
     this member in accordance with 45 CFR 2522.200.
                                                                                                            EXHIBIT F


                          MICHIGAN COMMUNITY SERVICE COMMISSION
                                 SCHEDULE OF AWARD COSTS
                      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                        AMERICORPS
                                    AWARD NO. 00ASFMI023
                             SEPTEMBER 1,2000, TO MARCH 31,2001



                                                          Claimed         Questioned for      Questioned
                                                           Costs           Allowability       for Support      Note
 Branch Intermediate School District
 Creston Neighborhood Association
 Habitat for Humanity Michigan
 Ionia Intermediate School District
 Marquette-Alger Intermediate School District
 NMCMH
 SOS Crisis Center
 Underground Railroad
 United Way Community Services
 Timing Difference
 Total

 Approved Budget                                          $1.138.075



1.     The Commission's accounting records reflect payments to NMCMH of $1 8'03 1 through March 3 1,2001. We
       questioned for allowability $343 and questioned for support $1,782, as follows:

               NMCMH paid unemployment insurance for its members, although Michigan state law does not mandate
               it. The Grantee cannot charge the cost of unemployment insurance taxes to the grant, unless these are
               mandated by State law (AmeriCorps Provisions, AmeriCorps Special Provisions, Living Allowances, In-
               Service Benefits and Taxes). We questioned for allowability unemployment insurance costs claimed of
               $343.

               NMCMH7sfiles did not contain sufficient documentation to support the eligibility for 1 of 5 member files
               tested. We were unable to ascertain from this file that the member received a high school diploma (or its
               equivalent). We questioned for support $1,782 of stipends paid to this member in accordance with 45
               CFR 2522.200.
                                                                                                      EXHIBIT G


                        MICHIGAN COMMUNITY SERVICE COMMISSION
                               SCHEDULE OF AWARD COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                   EDUCATION AWARD
                                  AWARD NO. 97EDSM1018
                           OCTOBER 1,1997, TO DECEMBER 31,1999


                                                  Claimed
                                                   Costs      Questioned
                                                  (Note 1)    for Support      Note
                         Subgrantee Payments       $15,000

                         Total                     $15.000

                         Education Awards                        $9.450          2

                         Approved Budget           $15.000



1.   This grant is a fixed-amount award for which the Commission is not required to submit FSRs. Claimed costs as
     shown above are based on the Commission's Federal Cash Transaction Report (FCTR) as of March 3 1,2001.

2.   MDA was a subrecipient for this award. MDA could not provide the member files for the two members we tested
     under this award. We were thus unable to verify that the members were eligible in accordance with 45 CFR
     2522.200. We questioned for support education awards of $9,450.
                                                                                                            EXHIBIT H


                         MICHIGAN COMMUNITY SERVICE COMMISSION
                                SCHEDULE OF AWARD COSTS
                     CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    PROMISE FELLOWS
                                   AWARD NO. 98APSMI023
                            NOVEMBER 1,1998 TO DECEMBER 31,1999



                                            Claimed      Questioned
                                             Costs           for          Questioned
                                            (Note 1)     Allowability     for Support     Notes
                    Total                   $145.000       $43.941 *        $15.553          2

                    Education Awards                                        $ 4.725          2

     * The Commission reimbursed $34,481 of this amount on its December 3 1,2001 FCTR.

1.   This grant is a fixed amount award, for which the Commission is not required to submit FSRs. The Corporation
     provided a fixed-level of support based on the specified number of fellows. Claimed costs shown above is the
     amount claimed on the Commission's FCTR as of March 3 1,2001. The Commission reduced its claim by
     $34,481 on its December 3 1,2001 FCTR.

2.   The grant provided funding of $145,000, based on 13 full-time fellows ($13,000 for the first 5 fellows and
     $10,000 each, thereafter). We questioned stipends of $43,94 1 for allowability; stipends of $15,553 for support,
     and education awards of $4,725 for support, as follows:

             We obtained the AmeriCorps Member Roster for this award and determined that the Commission had
             nine fellows for this grant who completed their terms, and two fellows who completed part of their terms
             (1,030 hours in total, or 60.588% of the 1,700 hour term). We noted, however, that one of the nine
             members was serving her third term as an Americorps member. Under the regulations effective at that
             time [45 CFR 2522.220(b)] an Americorps member could only receive stipends for the first two terms of
             service. Thus this member was not eligible for a stipend. The grant states: "For Fellows who complete a
             fraction of their service periods, grantees will be paid on a prorated basis in accordance with that fraction
             of service completed." Thus, the Commission should have been reimbursed $101,059 (5 multiplied by
             $13,000 plus 3.60588 multiplied by $10,000). We questioned the $43,941 difference between the amount
             claimed on the Commission's March 3 1, 2001, FCTR, and the amount due to the Commission in
             accordance with the grant terms.
The files for two subrecipients (Heart of West Michigan and EightCAP) did not contain birth certificates
for two members. We were thus unable to determine if the members were U.S. citizens at least 17 years
of age and eligible in accordance with 45 CFR 2522.200. We questioned for support $15,553 of stipends
paid for the members and $4,725 of education awards, as follows:


                                                               Education
                                                  Stipend       Award
              Heart of West Michigan              $10,000        $4,725
              EightCAP                              5,553
              Total                               $15.553        $4,725
                         MICHIGAN COMMUNITY SERVICE COMMISSION
                            NOTES TO SCHEDULES OF AWARD COSTS
                  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


Summary of Significant Accounting Policies

Basis of Accounting

         The accompanying Schedules have been prepared to comply with the Provisions of the grant agreements between
the Corporation and the Commission. The information presented in the Schedules has been prepared from the reports
submitted by the Commission to the Corporation and the accounting records of the Commission and its subgrantees. The
basis of accounting used in preparation of these reports differs from accounting principles generally accepted in the Unites
States of America as follows:

Equipment

         Equipment is charged to expense in the period during which it is purchased instead of being recognized as an
asset and depreciated over its useful life. As a result, the expense reflected in the Schedules of Award Costs includes the
cost of equipment purchased during the period rather than a provision for depreciation. The equipment acquired is owned
by the Commission while used in the program for which it was purchased or in other future authorized programs.
However, the Corporation has reversionary interest in the equipment. Its disposition, as well as the ownership of any
proceeds therefore, is subject to Federal regulations.

Inventory

        Minor materials and supplies are charged to expense during the period of purchase.
                                                                                                                                                              EXHIBIT I


                                                         MICHIGAN COMMUNITY SERVICE COMMISSION
                                                       SCHEDULE OF QUESTIONED COSTS BY SUBRECIPIENT
                                                     CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                                                       ALL AWARDS



                                                                                                                                  Creston     Michigan Onekama Non-Sub
                                        MDA        BHK      City Year   EMU        FIA      NMCMH     Oakland   U of M    Alpena Neigh Assoc 4-H Found Edu Found MCSC     Total
Questioned Costs for Allowability
Unallowable tuition costs
Unallowable unemployment insurance
Overpayment to subrecipient
Error in recording subrecipient costs
Administrative costs claimed in
excess of grant ceiling
Excess support claimed on fixed award
Total

Questioned Costs for Support
Missing eligibility documentation       $33,273   $25,459    $4,100     $19,101   $25,813   $23,299   $61,405   $53,553
Missing cost documentation                          1,265                 5,627     2,799       820
Unreconciled amounts
Total
                                       auditors advisors




                                             June 28,2002


Inspector General
Corporation for National ancJ Community Service


                   INDEPENDENT AUDITORS' REPORT ON COMPLIANCE

        We audited costs claimed by the Michigan Community Service Commission to the Corporation
for National and Community Service for the following awards and have issued our report thereon dated
June 28,2002, which report was qualified for the matters discussed therein:



Program                                 Award No.         ---Award    Period      -    Audit Period
AmeriCorps                             94ASCMI023            0810 1194-12131/00       10101197-1213 1/00
Program Development Assistance
 and Training (PDAT)                   95PDSMI022
Administrative                         94SCSMI022
Learn and Serve                        94LCSMI007
AmeriCorps                             00ASCMI023
AmeriCorps                             00ASFMI023
Education Award                        97EDSMIO18
Promise Fellows                        98APSMI023
Promise Fellows                        99APSMI023
Learn & Serve                          00LCSMI023
Administrative                         0 1SCSMI022
Disability Funds                       98DSCMI025
Make a Difference Day                 99MDDMI009
Education Award                        OOEDSMIO 18



        Except as discussed in the third and fourth paragraphs in our Independent Auditors' Report, we
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards issued by the Comptroller General of the United States.
Compliance with applicable laws and regulations related to the awards is the responsibility of the
Commission's management. As part of obtaining reasonable assurance that costs are free of material
misstatements, we performed tests of compliance with certain provisions of laws and regulations related
to the awards, noncompliance with which could have a direct and material effect on the determination of
amounts claimed in the Schedule of Award Costs. Our objective was not, however, to provide an opinion
on overall compliance with such provisions. Accordingly, we do not express such an opinion.

      The results of our tests of compliance disclosed the following instances of material
noncompliance that are required to be reported herein under Government Auditing Standards.

1.      Partial Education Awards Were Granted Without Adequate Justification

        Oakland University and the Family Independence Agency granted partial education awards to
members who prematurely exited the program without the "compelling personal circumstances"
necessary to merit a partial education award. These members left either to enroll in school or to take a
new job. The University of Michigan and the Family Independence Agency also granted partial
education awards without documenting the "compelling personal circumstances."

        45 CFR 2522.230 (a)(4) states that

                The program must document the basis for any determination that compelling
                personal circumstances prevent a participant from completing a term of service.

        45 CFR 2522.230 (a) (6) states that:

                Compelling personal circumstances do not include leaving a program: (i) To
                enroll in school; (ii) To obtain employment, other than in moving from welfare to
                work or in leaving a program that includes in its approved objectives the
                promotion of employment among its participants.. .

        Recommendation: We recommend that the Commission provide training to its subrecipients to
ensure that they are familiar with and understand the requirements for awarding partial education awards.

        Commission's Response: The Commission does not feel it is within its authority to make
determinations on pro-rated education awards, because the AmeriCorps Provisions state that each
program can decide whether a situation warrants a member receiving a partial education award. Thus, the
Corporation has authorized the programs, not the Commission, to approve granting these partial awards.
The Commission believes that the National Service Trust should monitor the granting of partial or pro-
rated education awards. The Commission will, however, review all member files for those issued a pro-
rated education award to ensure proper documentation exists to support the reason for the education
award.

2.      Subrecipients Treated Members as Employees

         Pathways to Healthy Living refers to its members as "employees" on timesheets, member
evaluations, and other documentation. In addition, we noted that the Michigan Department of Agriculture
(MDA), the Heart of West Michigan, and Eastern Michigan University paid members an hourly wage
instead of a stipend. Participants may not be considered as employees of the program in which they are
enrolled (45 CFR 25 10.20). Programs must not pay a living allowance on an hourly basis (AmeriCorps
Provisions, AmeriCorps Special Provisions, Living Allowances, In-Service Benefits and Taxes). The
living allowance is not a wage and should not fluctuate based on the number of hours members serve in a
given time period. Paying members on an hourly basis can result in payments exceeding the allowable
stipend amounts. For example, one of the MDA stipends that we tested included a small amount of
overtime.
        Recommendation: We recommend that the Commission remind its subrecipients that members
should not be treated as employees, and that stipends are not to be paid on an hourly basis.

         Commission's Response: The Commission provides training on this issue to all new program
and financial staff. Annually each AmeriCorps program receives a copy of Michigan's AmeriCorps
Policies and Procedures manual that clearly articulates the grant provisions on this issue. The
Commission reviews samples of the program's forms on each program site visit, and recently audited all
AmeriCorps members' timesheets for the program year 2001. The Commission will add a step on the site
visit checklist to verify that timesheets do not refer to the member as an employee. The Commission has
also identified the programs that have problems paying stipends in increments. The Commission is
working with these programs to create a system of paying the members a set amount each pay period, and
backing the timesheets with service timesheets showing the number of hours that the member has served.
The Commission cited the Michigan Department of Agriculture on this issue in the last few site visits,
and is correcting this issue using the corrective action process.

3.      The Commission Claimed Questioned and Unsupported Costs

         The notes to Exhibits A through H describe questioned costs in the amount of $55,8 17, which are
summarized in the table included in the Summary of Results. These questioned costs consist of costs
claimed by the Commission for which documentation shows that recorded costs were expended in
violation of laws, regulations, or specific conditions of awards or were costs that require interpretation of
allowability by the Corporation. In addition, the notes to Exhibits A through H describe unsupported
costs in the amount of $253,025; this amount consists of costs claimed by the Commission that require
additional documentation to support allowability. These unsupported costs are also summarized in the
table included in the Summary of Results.

       Recommendation: We recommend that the Corporation follow up with the Commission to
determine if questioned and unsupported amounts should be disallowed and recovered.

        Commission's Response: The Commission shwes to ensure that every expense is allowable and
documented. Because of personnel and accounting and payroll system changes over the years, the
Commission was in rare instances unable to produce the requested source documents. These are isolated
conditions that have been rectified.

         The Commission has cleared up a majority of the amounts questioned for allowability either with
the auditors or during grant closeout. Of the $73,041 questioned in the draft audit report, the Commission
has taken care of $62,165. Of the remaining balance, $6,932 results from subrecipient payment coding
errors in the previous accounting system. The Commission, however, reconciled its books to amounts
actually paid to subrecipients when closing out this grant. The Commission therefore only drew down
amounts actually paid to the subrecipients on this award.

        The Commission is reviewing its processes to ensure that subrecipients maintain the required
member documentation. The results of annual member training and review are evidenced by the sharp
decrease in findings during the more recent years. The Commission is considering implementing either a
100% desk audit of all AmeriCorps members or requiring certification letters from the Program Directors
that documents have been received. The Commission may implement a policy that no members will be
enrolled prior to the receipt of the required documents.
4.       The Commission Did Not Submit Financial Reports in a Timely Manner

         The Commission did not submit its FSRs in a timely manner. Reports submitted on a quarterly or
semiannual basis are due 30 days after the date the reporting period ends [45 CFR 2541.410(b)(4)]. We
tested all FSRs submitted during the audit period and determined that 15 of these were submitted late, as
follows:
                                          Year        Tested     Late
                                      1997-1998         18         9
                                      1998-1999         27         1
                                      1999-2000         23         1
                                      2000-200 1        18         4



         In addition, we noted that several of the Commission's subrecipients filed late FSRs as follows:

                                                                   Late by Program Year
     Subrecipient                            Tested      97-98     98-99 99-00 00-01             Total
     BHK Child Development Board               21          3         1       1                    5
     Michigan Department of Agriculture        16          5         5       1      2             13
     Oakland University                        8           2         2                            4
     Regents of University of Michigan         7           3         2                             5
     Eastern Michigan University               13          4         2       2                     8
     Onekama Education Foundation              9                             1                     1
     Heart of West Michigan                     8                            1                     1


        We also noted that the University of Michigan did not report its non-cash in-kind support in a
timely manner. For example, its April 1998 contributions were not reported on its FSR until October
1999. Failure to prepare and submit FSRs in a timely manner hinders Corporation oversight of the
Commission's financial performance and could result in funding delays.

        The Commission had not submitted its grant closeout form for Grant No. 94ASCMI023 as of
February 28,2002, which was due March 3 1,2001. In addition, several subrecipients submitted grant
closeout forms late. The Commission requires that subrecipients submit grant closeout forms at the end
of each grant year. Final reports are due 90 days after the expiration or termination of grant support [45
CFR 254 1.41O(b)(4)]. We noted that:

                 BHK submitted two of its three closeout forms 91 to 120 days after grant yearend.

                 University of Michigan submitted its closeout forms for 1998 and 1999 5 to 6 months
                 late.

         .       Heart of West Michigan was unable to provide its closeout forms for 1998 and 1999, and
                 MDA was unable to provide its closeout forms for 1997 and 1998. Thus, we we were
                 unable to determine if these were submitted in a timely manner.

        Recommendation: We recommend that the Commission implement procedures to ensure the
timely submission of all FSRs and grant closeout documents.
        Commission's Response: The Commission has worked with its programs to improve reporting
timeliness by providing financial and programmatic training. As evidenced by the audit report, the
number of programs reporting late continues to drop. In the last two reporting periods (March 3 1,2002
and June 30,2002) all of Michigan's AmeriCorps and Learn and Serve subrecipients met the required
timeframes.

5.      The Commission Did Not Adequately Monitor its Subrecipients

        As part of its monitoring requirements, the Commission is responsible for ensuring that
subrecipients are adequately trained in programmatic provisions and maintaining required documentation
accordingly. Our testing of subrecipient member files disclosed that some subrecipients were not
complying with all program requirements, as follows:

                Member files at nine subrecipients were missing documentation on mid-term and/or final
                evaluations. Grantees are required to conduct at least mid-term and end-of-term
                evaluations of each member's performance (AmeriCorps Provisions, AmeriCorps Special
                Provisions, Member Records and Confidentiality), documenting that the member has:

                    Completed the required number of hours.
                    Satisfactorily completed assignments.
                    Met other performance criteria that were clearly communicated at the beginning of
                    the service term.

                The following subrecipient files were missing these evaluations:


                                                                        Number of Files
      Subrecipient                               Period           Tested   Missing Evaluations
      BHK                                       1997-2001          26               14
      City Year
      Michigan Department of Agriculture
      Regents of University of Michigan
      NMCMH
      Eastern Michigan University
      Family Independence Agency
      EightCAP
      Heart of West Michigan


                Member files at ten subrecipients did not always include high school diplomas or
                equivalent records. If a member does not have a high school diploma or equivalent at
                enrollment time, the Grantee must obtain a record of the elementary or high school drop-
                out date and the member's written agreement to obtain a high school diploma or
                equivalent before using the education award (AmeriCorps Provisions, AmeriCorps
                Special Provisions, Member Records and Confidentiality). Failure to obtain this
                information could result in education awards to ineligible individuals. Member files were
                missing high school diplomas or equivalent information, as follows:
City Year
Michigan Department of Agriculture
Regents of University of Michigan
NMCMH
Oakland University
Family Independence Agency
EightCAP
Heart of West Michigan
Pathways to Healthy Living (PHL)


         Several subrecipients' files were missing complete member agreements, as follows:


                                                                Number of Files
Subrecipient                              Period          Tested   Missing Agreements
Michigan Department of Agriculture       1997-1999          22               5
Regents of University of Michigan        1997-2001          27              21
NMCMH                                    1997-2001          12               2
Family Independence Agency               1997-200 1         26               5


         Member agreements in several subrecipients' files were missing the signature of the
         program director or certifying officer, as follows:


                                                                 Number of Files
Subrecipient                              Period           Tested   Missing Agreements
BHK Child Development Board              1998-2001           26              19
Regents of University of Michigan        1998-2001           27               6
Eastern Michigan University              1999-2000           21               4
Heart of West Michigan                   1998-1999            2               1


         Both NMCMH and PHL did not include required provisions regarding the Drug Free
         Workplace Act in their member agreements. We tested 12 NMCMH member files from
         1997 to 200 1 and 4 PHL member files from 1999 to 2001. No agreements addressed
         these requirements. Grantees must require members to sign contracts stipulating
         (ArneriCorps Provisions, ArneriCorps Special Provisions, Living Allowances, Member
         Contracts):

             Minimum number of service hours necessary to be eligible for the education award.
             Acceptable conduct.
             Prohibited activities.
             Requirements under the Drug Free Workplace Act.
             Suspension and termination rule.
             Specific circumstances under which a member may be terminated.
             Position description.
             Grievance procedures.
             Other requirements as established by the program.

         Several subrecipients' files did not contain evidence that background checks were
         performed on members working with children, as follows:


                                                                    Number of Files
Subrecipient                              Period           Tested    No Background Checks
City Year                                2000-200 1          14                 6
Regents of University of Michigan        1997-2000           27                20
Eastern Michigan University              1997-2000           21                16
Family Independence Agency               1997-2001          26                  5
EightCAP                                 1998-2001            7                 1


          Programs with members who have substantial direct contact with children must conduct
          criminal record checks on these members and maintain related documentation in member
          files (ArneriCorpsProvisions, AmeriCorps Special Provisions, Criminal Record Checks).
          Failure to perform these background checks could result in children being exposed to
          members with histories of criminal violations.

          Member files at several subrecipients lacked sufficient information to document member
          enrollments and exits. Member enrollment forms must be submitted to the Corporation
          no later than 30 days after a member is enrolled, and member exitlend-of-term-of-service
          forms must be submitted no later than 15 days after a member exits the program
          (AmeriCorps Provisions, ArneriCorps Special Provisions, AmeriCorps Member-Related
          Forms). Subrecipient failure to obtain and submit this information promptly results in
          inaccurate Corporation member enrollment records. We noted that enrollment and end-
          of-term-of-service forms were missing or lacked certification dates, as follows:


                                                                    Number of Files
Subrecipient                              Period          Tested      Missing Information
City Year                                1999-2001          14                 14
Regents of University of Michigan        1997-2000          27                  8
NMCMH                                    1997-1998          27                  3
Eastern Michigan University              1997-1999          21                  6

          In addition, we noted that enrollment, change of status, and exit forms were not submitted
          within the required period, as follows:

                                                                    Number of Files
Subrecipient                               Period         Tested        Submitted Late
City Year                                 1999-2001         14                  1
Regents of University of Michigan         1997-2000         27                 22
Michigan Dept of Agriculture              1997-2001         22                  7
EightCAP                                  1998-1999          7                  2
 .       Several subrecipients could not provide sufficient information to support member
         eligibility either because the member file was missing or the eligibility documentation
         was not in the file. Grantees must maintain verifiable records that document each
         member's eligibility to serve based upon citizenship, birth date, and level of educational
         attainment (AmeriCorps Provisions, AmeriCorps Special Provisions, Record-Keeping).
         Records kept in some recipient member files did not include adequate eligibility
         documentation, as follows:




City Year
Regents of University of Michigan
NMCMH
Eastern Michigan University
Family Independence Agency
Michigan Dept of Agriculture
Oakland University
EightCAP
Heart of West Michigan


         BHK Child Development Board allowed one Program Year 1997-1998 member to
         change her status fiom full-time to part-time after her first 3 months of service without
         completing a Change of Status form. Such changes must be approved within the first 3
         months of the member's service, and a Change of Status form must be completed and
         forwarded to the Corporation within 30 days (AmeriCorps Provisions, AmeriCorps
         Special Provisions, Terms of Service).

         City Year did not notify the Corporation that two Program Year 2000-2001 members had
         not completed their high school equivalency certificates by the end of their term of
         service, as required by the Program Director's handbook. As a result, these members
         may have received education awards for which they were not eligible.

  rn     Family Independence Agency paid one Program Year 1999-2000 member a stipend and
         permitted the member to accumulate hours while on suspension. Members who are
         suspended may not receive a living allowance for the suspension period (AmeriCorps
         Provisions, AmeriCorps Special Provisions, Minor Disciplinary Actions).

  rn     Oakland University did not notify the Commission of the December 2000 theft of $450
         that was to have been an AmeriCorps reimbursement. Grantees are required to notify the
         Corporation's Office of Inspector General immediately of losses of Federal funds or any
         violation of criminal law (ArneriCorps Provisions, AmeriCorps Special Provisions,
         Responsibilities under Grant Administration).

  rn     Michigan Department of Agriculture and the University of Michigan did not submit
         quarterly progress reports in a timely manner. Quarterly reports are due 30 days after the
         reporting period [45 CFR 2541.4OO(b)(l)]. The University of Michigan submitted three
         out of five progress reports for Program Years 1999-2001, and MDA submitted two of
         four progress reports for Program Year 2000-2001 later than 30 days after the quarter
         ended.
        The Commission performs regular programmatic site visits to its subrecipients. We noted,
however, that it only reviews current-year member files, and monitoring tools are not being utilized on a
consistent basis. For example, we noted instances in which pre-site visit checklists, member file
checklists, and interview packets were not completed. Ensuring that site visits include past-year as well
as current-year member files, as well as additional training for the Commission staff in the use of
monitoring tools, would prevent the likelihood that problems such as those described above will occur.

        Regulation 45 CFR Section 254 1.400, Monitoring and Reporting Program Performance,
paragraph (a), states that:

                Grantees are responsible for managing the day-to-day operations of grant
                and subgrant supported activities. Grantees must monitor grant and
                subgrant supported activities to assure compliance with applicable
                Federal requirements and that performance goals are being achieved.
                Grantee monitoring must cover each program, function, or activity.

        Recommendation: We recommend that the Commission strengthen its program monitoring
procedures to ensure that these meet the requirements of 45 CFR 2541.400. The Commission should
ensure that past-year as well as current-year member files are included in its reviews. Specifically, the
Commission should ensure that subrecipients are:

        a       Aware of and complying with all significant member eligibility and notification
                requirements.

        a       Aware of and complying with grant requirements for conducting and retaining member
                evaluations.

        a       Maintaining required educational information.

        a       Maintaining all member agreements and including all required provisions in these
                agreements.

                Obtaining member background checks when warranted.

        a       Documenting member enrollments and exits promptly and submitting this information to
                the Corporation in a timely manner.

        a       Maintaining sufficient information to support member eligibility.

         Commission's Response: The Commission's policy requires a minimum of one program site
visit per program year. During the majority of the audit period, the Commission operated with only one
program coordinator. The Commission has expanded its program staff to include multiple, well trained
program coordinators who have a background in national service. The Commission has also implemented
new policies regarding completion of site visit files. The Director of Programs now reviews the
completed file as part of the site visit to ensure complete, correct, and timely program feedback and files.
        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress and should not be used by anyone
other than these specified parties.


                                                 COTTON & COMPANY LLP



                                                 Alan Rosenthal, CPA
                                                 Partner
+   +   +   +   3   +   +   +   +   3   +   +   +
m \
\
  n m m m m m m m m m m m
    \ \ \ \ \ \ \ \ \ \ \
         Commission management is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess expected
benefits and related costs of internal control policies and procedures. The objectives of internal control
are to provide management with reasonable, but not absolute, assurance that assets are safeguarded
against loss from unauthorized use or disposition, and that transactions are executed in accordance with
management's authorization and recorded properly to permit the preparation of financial schedules in
accordance with generally accepted accounting principles. Because of inherent limitations in internal
control, errors or irregularities may nevertheless occur and not be detected. Also, projection of any
evaluation of internal control to future periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the effectiveness of the design and operation of
policies and procedures may deteriorate.

        In planning and performing our audit, we considered the Commission's internal control to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements
and not to provide assurance on the internal control.

        We noted three matters involving internal control and its operations that we consider reportable
conditions under standards established by the American Institute of Certified Public Accountants
(AICPA). Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control over financial reporting that, in our
judgment, could adversely affect the Commission's ability to record, process, summarize, and report
financial data consistent with management assertions in the financial schedules. These matters are
discussed below.

1.      The Commission Did Not Perform Regular Financial Monitoring of Subrecipients

        The Commission did not perform financial monitoring of its subrecipients on a regular basis. In
1998 and 1999, in response to the Pre-Audit Survey, the Commission performed financial site visits of all
subrecipients. In all other years under audit, however, it performed no consistent or thorough subrecipient
reviews. In 1999 and 2001, the Commission performed only a few financial site visits, and only limited
documentation of the monitoring procedures performed exists. In our audit of selected subrecipients, we
noted the following conditions, which are evidence of the need for improvements in the Commission's
financial monitoring of subrecipients:

                 Family Independence Agency used grant funds to pay unallowable member tuition costs
                 and claimed matching funds to purchase a stove.

                 NMCMH awarded a subgrant without obtaining the Corporation's prior written approval
                 as required by AmeriCorps Provisions, AmeriCorps Special Provisions.

                 NMCMH paid unallowable unemployment insurance costs.

                 Oakland University, Alpena Community College, and City Year could not provide
                 reconciliations of their accounting detail with their FSRs.

                 Michigan Department of Agriculture, Heart of West Michigan, and Eastern Michigan
                 University paid members an hourly wage instead of a stipend. Members should not be
                 paid on a hourly basis (AmeriCorps Provisions, AmeriCorps Special Provisions)

                 Onekama claimed administrative costs in excess of the grant agreement ceiling.
        rn      BHK, FIA, EMU, and NMCMH could not provide documentation to support all direct
                cost charges tested.

                MDA did not require supervisor signatures on time-and-attendance records from 1997 to
                1999. Also, several of Heart of West Michigan's 1998 to 1999 timesheets were missing
                supervisor signatures.

                Oakland University did not notify the Commission that $450 of AmeriCorps funds had
                been stolen, as required by AmeriCorps Provisions, ArneriCorps Special Provisions.

         The Commission is responsible for ensuring that its subrecipients are aware of and complying
with all grant financial management requirements in accordance with the AmeriCorps Provisions,
Responsibilities Under Grant Administration. Unless these requirements are properly communicated, and
subrecipient performance is monitored, conditions such as those described above can occur and not be
detected in a timely manner.

        Recommendation: We recommend that the Commission review its financial monitoring
procedures and revise them as necessary to ensure that all significant grant financial requirements are
communicated to subrecipients, and that subrecipient compliance with them is adequately monitored.
The Commission might consider performing risk-based assessments on a regular basis to select
subrecipients for site visits.

         Commission's Response: Because of financial and staffing constraints, the Commission has only
been performing an on-site financial visit once during subrecipients' funding cycle (three years). In
addition, the Commission reviews annual audits, periodic expense reports, and other financial information
supplied by subrecipients. The Commission has recently hired a grants coordinator who will spend 100%
of his time on Federal subrecipients. The Commission is also developing a risk-based process to
determine the level of risk of individual programs. Until it is in place, the Commission will conduct desk
audits and financial site visits on all of its programs. The Commission has already implemented new
close out procedures, including an audit of member timesheets to the WBRS system and review of
member files after completion of their term.

2.       The Commission Did Not Communicate Grant Documentation Retention Requirements to
         Its Subrecipients

        The Commission has not ensured that subrecipients have complied with grant documentation
retention requirements. Grant records must be retained for 3 years from the date the grantee or subgrantee
submits its final expenditure report (45 CFR 2541.420, and 45CFR 2543.53). Many of the subrecipients,
however, seem to be unaware of this requirement. We noted the following:

                The subgrantee agreement with BHK specifies a different retention period from that in
                the Corporation grant: 3 years from the date final payment is made for the grant year.

                 MDA representatives believed that the grant retention policy was the same as its own:
                 documents are retained for the current year plus 5 years.

                 Oakland University representatives believed that records were to be retained in
                 accordance with its policy, which is 7 years.
         We recognize that Commission subrecipients may, in some cases, be subject to lengthier record
retention periods under state, local, or other applicable standards. While most of the subrecipients'
retention periods appear to be longer than that required by the AmeriCorps Provisions, this may not be the
case if there is a delay in filing the final expenditure report. Failure to ensure that subrecipients comply
with grant records retention requirements could result in the disposition of grant documents prematurely.

        Recommendation: We recommend that the Commission take steps to ensure, at a minimum, that
all subrecipients are aware of and comply with the Corporation's record retention requirements.

        Commission's Response: The Commission feels that sufficient information regarding retention
periods is given to all of its subrecipients on a yearly basis. All subrecipients are required to review and
approve the grant agreement, follow all applicable OMB regulations, and attend annual financial trainings
performed by the Commission. Information on document record retention is contained in all three areas.
The Commission is working with the Corporation to determine proper retention periods for subrecipients.
Once a final decision is made, the Commission will implement new policies and procedures for document
retention that will be incorporated into the close out letter.

3.      The Commission Did Not Adequately Evaluate Subrecipient Past Performance and
        Financial Capability During the Subgrant Award Process

        We noted two matters with respect to the Commission's subgrant award process:

                 The Commission did not have a formal, consistent approach to evaluating subrecipients'
                 past experience. It used a renewal ranking sheet to assess subrecipients' continuation of
                 funding requests. This system, while it assesses program progress, does not formally
                 consider timeliness of reporting programmatic and financial data, accuracy of reporting,
                 attendance at events and meetings, issues raised at site visits, or any other known relevant
                 matters.

                 The Commission did not maintain evidence that it considered subrecipients' financial
                 system adequacy during the subgrant application process.

         Failure to consistently evaluate past experience and to consider subrecipients' capability to
comply with the award's financial requirements could result in awards to subrecipients who are unable to
satisfactorily carry out program goals. The Commission has developed checklists that it will implement
in its October 2002 grant proposal evaluation process, both to evaluate past experience and to assess
financial system adequacy.

        Recommendation: We recommend that the Corporation review the checklists to be used in the
Commission's subgrant award process and confirm that these adequately address past experience and
financial system evaluations.

        Commission's Response: The Commission takes into account the subrecipients' past program
and financial compliance during the application process, but this has not been documented in writing.
The Commission will incorporate, as part of the application process, a checklist that will detail
information supplied by both the program and grants coordinator regarding the program's performance
during the previous year, concerns, and corrective action plans.
         A material weakness is a condition in which the design or operation of one or more of the specific
internal control components does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the schedules of award costs being audited may occur and
not be detected within a timely period by employees in the normal course of performing their assigned
functions. Our consideration of internal control over financial reporting would not necessarily disclose all
matters in internal control that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses. We consider the
first matter listed above involving internal control and its operation to be a material weakness.

        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress and should not be used by anyone
other than these specified parties.


                                                  COTTON & COMPANY LLP



                                                  Alan Rosenthal, CPA
                                                  Partner
                                             ATTACHMENT


                  STATUS OF FINDINGS FROM THE PRE-AUDIT SURVEY OF
                   THE MICHIGAN COMMUNITY SERVICE COMMISSION
                              OIG AUDIT REPORT NO. 00-25


Lack of Documentation to Support the Review of Certain Information During the Renewal Process

        The Commission did not document its review of quarterly progress reports and site visit reports
during the renewal process of two subgrantees.

        Current Status: The Commission is creating a checklist that will document its review of all
information collected on the subrecipient during the renewal process. It intends to use this checklist in the
Fall 2002 award process. See our Report on Internal Control for the related audit finding and
recommendation. We consider this finding open.

Lack of Assessment of Subgrantee Applicants' Financial Systems During the Selection Process

       The Commission did not consider the adequacy of applicant's financial systems during the
subgrantee selection process.

         Current Status: The Commission intends to require all applicants to submit their most recent
audit report, and include a completed financial management survey. The Commission's award checklist
will include this information. See our Report on Internal Control for the related audit finding and
recommendation. We consider this finding open.

Lack of Evidence of Financial Status Report Review, Including Matching Recalculation, Prior to
the 1999 Program Year

        The Commission's procedures required that subgrantee FSRs be reviewed, and matching
requirements recalculated. Before Program Year 1999, however, this review was not documented. In
addition, several instances were noted where subgrantees' FSRs were not accurately prepared or
completed. Also, Commission personnel did not compare FSRs to the subgrantees' accounting records or
other supporting documentation during site visits.

        Current Status: With the implementation of Web Based Reporting System (WBRS), the issue of
subgrantees' inaccurate or incomplete FSR reporting has been resolved. We noted, however, that
improvements are still needed in the Commission's financial monitoring of subgrantees (See our Report
on Internal Control). We consider this finding open.

Late Submission of Financial Status Reports

      The Pre-Audit Survey identified four instances in which subgrantees did not submit FSRs to the
Commission in a timely manner and in accordance with Corporation guidelines.

        Current Status: We noted several Program Year 2000-2001 FSRs submitted later than the
required 30 days after the end of the reporting period (see our Report on Compliance). We consider this
finding open.
The Commission Did Not Maintain All Required Financial Status Reports

      The Pre-Audit Survey identified three instances in which FSRs were not maintained in the
Commission's subgrantee files and six instances in which amounts reported to the Corporation by the
Commission could not be verified because of inadequate supporting documentation.

        Current Status: The Commission was able to provide all FSRs requested during our audit. Also,
with implementation of WBRS, the Commission will be able to provide any subgrantee FSR for any
reporting period. We consider this finding closed.

The Commission Could Not Provide the Dollar Amount of the Match for the Administrative Grant

       The Commission was unable to provide the dollar amount of its administration grant match for
1995, 1996, and 1997. It did provide its 1998 and 1999 match.

         Current Status: The Commission provided the total dollar amount of its match for the
administration grant with supporting documentation for all the years included in our audit. We consider
this finding closed.

The Evaluating and Monitoring System for Subgrantees Needs to be Improved

         The Commission's site visit documentation did not include names of member files reviewed,
identification of member files where exceptions were identified, and procedures followed to select
member files reviewed. The Commission also did not consistently maintain the following information in
its monitoring files: findings and recommendations identified during site visits; resolution and follow-up
on identified findings; and progress reports.

         Current Status: While we noted some improvements in the Commission's system since the Pre-
Audit Survey, we found instances in which pre-site visit checklists, member file checklists, and interview
packets were not completed. We also noted that the Commission only reviews current-year member files
during its site visits; thus, items such as final evaluations are never included in its review. We consider
this finding open (see our Report on Compliance).
                                              APPENDIX A




COMMISSION'S RESPONSE TO DRAFT AUDIT REPORT
                                                  STATE OF MICHIGAN




                                                 JOHN ENGLER. Governor

                           MICHIGAN COMMUNITY SERVICE COMMISSION
Chairperson                                                                                       1048 Pierpont, Suite 4
Russell G. Mawby                                                                                Lansing, Michigan 48911
                                                                                              Telephone: (517) 335-4295
Executive Director                                                                                  FAX: (517) 373-4977
Kyle Caldwell




           September 20,2002




           Mr. Terry Bathen, Acting Inspector General
           Corporation for National Service
           1201 New York Avenue, NW
           Washington, D.C. 20525

           Re: Draft Report of the Incurred-Costs Audit of Grants Awarded to the Michigan Community
           Service Commission, OIG Audit Report No. 02-14 June 28,2002.

           Dear Mr. Bathen:

           The Michigan Community Service Commission (MCSC) and the Internal Auditor from the
           Michigan Department of Career Development (MDCD) have reviewed the Draft Report of the
           Incurred-Costs Audit of Grants Awarded to the Michigan Community Service Commission, OIG
           Audit Report No. 02-14 June 28,2002. The MCSC has forwarded additional information to
           Cotton & Company, LLP regarding a majority of the questioned costs for allowability addressed
           in the report. Additional information on these issues will be addressed in the specific responses
           to the draft's summary report.

           In the draft report, Cotton & Company, LLP has supplied an Audit Report Summary that
           combines many of the similar findings into distinct material instances. For this response, the
           MCSC will address the five material instances of noncompliance and the three reportable
           conditions on internal control, which are cited on page 2 of the draft report.

           MCSC's responses to the five material instances of noncompliance are as follows:


           1. "Education Awards were granted without adequate justification"

                     This issue is one that the MCSC has disagreed with for many years. The AmeriCorps
                     Provisions state, "The Corporation for National Service allows each program to decide on
                     a case by case basis whether the situation warrants a member receiving a partial
Page 2
Mr. Terry Bathen
Draft Report of the Incurred-Costs Audit of Grants Awarded to the Michigan Community
Service Commission, OIG Audit Report No. 02-14 June 28,2002.

       award. However, the Corporation's policy is that generally the compelling circumstance
       must be beyond the member's control". Based upon this statement, CNCS has authorized
       the programs and not the MCSC the authority to approve granting a partial education
       award. While CNCS lists the reasons that "generally" fit the compelling circumstances,
       the mere use of the word "generally" leaves the reasons and circumstances open to
       individual interpretation and under-minds the authority of the MCSC to control awarding
       of partial ed-awards.

       The MCSC maintains the position that because the provisions gives the granting authority
       to the Program Directors, the granting of partial or pro-rated education awards should be
       monitored by the National Service Trust. If the MCSC reviews the compelling
       circumstances prior to the award, it would be in effect placing the granting or approval
       authority with the MCSC, which goes against the provisions of the grant award.
       Therefore, the MCSC does not feel that it should be monitoring the compelling reasons or
       documentation for granting pro-rated education awards. This function should be the
       responsibility of the National Service Trust.

       Although we do not feel it is within our authority to make determinations on pro-rated
       education awards, the MCSC will review all member files for those issued a pro-rated
       education award to ensure proper documentation exists to support the reason for the
       education award.

 2. "Members were paid as if hourly wage employees."

       The MCSC performs trainings for all new program and financial staff regarding this
       issue. Each year every Michigan's AmeriCorps program receives a copy of the
       Michigan's AmeriCorps Policies and Procedures manual that clearly articulates the grant
       provisions including those related to these citings. Part of the training discusses the use
       of the word employee on any timesheets or documentation used for its members. As part
       of the program site visits, samples of the forms used by the programs are reviewed. Over
       the past years, many of the programs have modified their normal time sheets to
       accommodate the members. In some instances, the programs did not take the word
       employees off the original timesheets. The MCSC has been reviewing timesheets and
       just this year audited all AmeriCorps members' timesheets for the program year 2001.
       The MCSC will add the question on the site visit checklist to verify that the timesheets do
       not show the word "employee".

       In response to members being paid by the hour, the MCSC has identified the programs
       that have problems paying a stipend in increments. We have been working with the
       programs to create a system of paying the members a set amount each pay period and
       backing the timesheets with service timesheets showing the number of hours that the
       member has served. In addition, the MCSC has cited the Michigan Department of
       Agriculture on this issue in the last few site visits and is using the corrective action
       process to correct the issue.
Page 3
Mr. Terry Bathen
Draft Report of the Incurred-Costs Audit of Grants Awarded to the Michigan Community
Service Commission, OIG Audit Report No. 02-14 June 28,2002.

3. "The Commission claimed costs that were either not allowable or for which no support
   for allowability was provided."

       The MCSC through its department, the Michigan Department of Career Development,
       strives to ensure that every expense is allowable and documented. Over the years, the
       Department has undergone many changes including department name(s), directors,
       accounting systems, and payroll systems. As a result of these changes, MDCD was in
       rare instances, unable to produce a payroll document from over three years ago during a
       payroll system changeover and source documents when accounting transactions were
       performed to change accounting from one set of accounting to another. These are very
       isolated conditions that have been rectified within the State and the Department.

       In addition, the majority of the amount question for allowability has been cleared up with
       the auditors with the proper documentation or cleared up by the department during the
       closeout of its grants. It is important to note that of the $73,041 originally shown in the
       draft, $62,165 has been taken care of by the department, leaving a balance of $10,876.
       Of the remaining balance, $6,932 dollars is the result of errors in coding payments from
       the previous accounting system. While the amount shown on the data dump shows these
       amounts, the department balanced out the grant against the sub-grantee payments for this
       award in closing out the grant. Therefore, while the amount showing on the data dump
       had the two extra-undocumented transactions in it, the department reconciled its books
       when closing out the award. The award was balanced to the amount paid to the sub-
       recipients therefore, the MDCD only drew down the amount of federal funds required to
       pay the sub-grantees on this award.

       In addition, the MCSC supplied additional documentation for the unsupported costs that
       were within the State's system. The majority of the unsupported costs were missing
       documents within the member files.

       The MCSC is currently reviewing our processes to ensure that the sub-grantees maintain
       the required documentation for the members. The MCSC has been training the programs
       on an annual basis in the proper forms required in the member files and has been
       reviewing the files during the site visits. The results of this intensified training and
       review is evidenced by the sharp decrease in the findings during the more recent years.

       The MCSC is looking at implementing either a 100% desk audit of all ArneriCorps
       members or a certification letter from the Program Directors as to the receipt of the
       documents. In addition, we are looking at implementing a policy that no members will
       be enrolled prior to the receipt of the required documents. The goal is to have the new
       policies in place by the end of this calendar year in addition to a 100% compliance review
       of the past year and current year member files.
Page 4
Mr. Terry Bathen
Draft Report of the Incurred-Costs Audit of Grants Awarded to the Michigan Community
Service Commission, OIG Audit Report No. 02-14 June 28,2002.

4. "Financial Status Reports were not submitted timely."

       Timely reporting of Financial Status Reports (FSR) has been a challenge for the MCSC
       for many years. The MCSC has worked with its programs by providing financial and
       programmatic trainings and has also used outside training providers. In addition, the
       Commission withholds reimbursement when reports are past due. Some of our programs
       have problems due to internal accounting systems and the MCSC is working with them to
       speed up the reporting process. As evidence by the drafi report, the number of programs
       reporting late continues to drop.

       For the MCSC's last two reporting periods, 3/31/02 and 6/30/02, all of the Michigan's
       ArneriCorps and the Learn and Serve sub-grantees met the required time frame. This was
       a total of 33 Michigan's ArneriCorps and 38 Learn and Serve sub-grantees. The MCSC
       will continue to work on achieving 100% compliance on FSRs.


5. "Sub-recipients were not adequately monitored by the Commission."

       The MCSC policy on program monitoring includes a minimum of one site visit per
       program year. During the site visit the program coordinator reviews 20% of the member
       files in addition to the program objectives, interviews, and training needs. During the
       past couple of years the MCSC has operated with only one program coordinator during a
       majority of the audit period. Documentation on the program site visit was not always
       completed as required.

       The MCSC has expanded its program staff to include multiple high quality program
       coordinators who have a background in national service. The Director of Programs has
       trained the program staff to perform high quality and complete site visits. In addition,
       new policies regarding completion of the site visits and files have been implemented.
       The completed site visit file is now being review by the Director of Programs as part of
       the site visit to ensure complete, correct and timely program feedback and files.


MCSC's responses to the three reportable conditions on internal control.

1. "Financial monitoring of sub-recipients not performed by the Commission on a regular
   basis."

       Due to financial and staffing constraints, the MCSC has only been performing an on-site
       financial visit once during a sub-grantees funding cycle (three years). In addition, the
       MCSC reviews annual audits, Periodic Expenses Reports, and other financial information
       that is supplied by the sub-grantees.
Page 5
Mr. Terry Bathen
Draft Report of the Incurred-Costs Audit of Grants Awarded to the Michigan Community
Service Commission, OIG Audit Report No. 02-14 June 28,2002.

       Our Program Officer at the Corporation for National and Community Service has
       reviewed our systems and processes. No concerns with our financial processes were
       noted.

       With the recent addition of a Grants Coordinator who spends 100% of his time on our
       federal sub-grantees, the MCSC will be able to perform more on-site financial visits and
       desk audits. The MCSC is currently working on developing a risk-based process to
       determine the level of risk of individual programs. Until the new risk-based policy is in
       place, the MCSC will conduct desk audits and financial site visits on its entire portfolio.

       New close out policies have already been implemented, which includes an audit of
       member timesheets to the WBRS system and a review of the member files after
       completion of their term. For the 2001 - 2002 program year, a 100% desk audit of
       member timesheets against the WBRS system was recently completed. Results of the
       desk audit were compiled and forwarded to the sub-grantees and the appropriate program
       officers.

2. "Documentation retention requirements were not communicated by the Commission to
   the sub-recipients."

       The MCSC performs financial trainings yearly that discuss retention periods. It is the
       State of Michigan's position that records only need to be retained for a period of three
       years after the final payment requestJFSR. Upon review of the OMB regulations it is the
       Department's and the Commissions understanding that all programs only need to
       maintain records for the three-year period regardless of the grantor's retention period.

       The provisions of our sub-grant document are written by the State of Michigan's
       Department of Management and Budget and are reviewed by attorneys and auditors prior
       to approval. The MCSC is required to utilize this standard documentation language in all
       of our contracts and grants. In addition, the finding shows that two programs have a
       longer retention period than that required by law. The MCSC's only concern is that the
       sub-grantees meet the minimum requirements. If the agency has a policy, which states a
       longer period of retention, the MCSC will not suggest a shorter period.

       All sub-grantees are required to review and approve the grant agreement, follow all
       applicable OMB regulations, and attend financial trainings performed by the MCSC.
       Information on document/record retention is contained in all three areas. The MCSC
       feels that sufficient information regarding retention periods is given to our sub-grantees
       on a yearly basis.

       The MCSC is working with the MDCD and CNCS to determine proper retention periods
       for sub-grantees. Once a final decision has been made, the MCSC will implement new
       policies and procedures for document retention that will be incorporated into the close
       out letter.
Page 6
Mr. Terry Bathen
Draft Report of the Incurred-Costs Audit of Grants Awarded to the Michigan Community
Service Commission, OIG Audit Report No. 02-14 June 28,2002.

3. "During the sub-grant award process the Commission did not adequately evaluation
   sub-recipients past performance past financial capability."

       Currently the MCSC takes into account the sub-recipient's past program and financial
       compliance during the application process. This process was not documented in writing.
       However, the program coordinator and the financial manager have been part of the
       review process. In addition, the MCSC handles all compliance/financial issues during the
       program year.

       The MCSC will revise its policies to include as part of the application process a checklist
       that will detail information supplied by both the program and grants coordinator
       regarding the program's performance during the previous year. This statement will
       include an explanation of the concerns and if the program has not corrected the issue(s) a
       corrective action plan will be included as part of the application process. This new policy
       will ensure that all applicable information on sub-recipients is taken into account during
       the application process.


Based on all of the above, the MCSC expects that several changes will be incorporated in the
final report. If you have any questions on our response to the Draft Report of the Michigan
Community Service Commission, please contact either of us at (517) 335-4295.


Sincerely,



Kyle Caldwell, Executive Director     &eth C. Gross, Director of Finance and Admin.
Michigan Community Service Commission Michigan Community Service Commission

cc: Deb LaPine, MDCD
    Larry Misiewicz, MDCD
                                           APPENDIX B




CORPORATION'S RESPONSE TO DRAFT AUDIT REPORT
                                           CORPORATION

                                          FOR NATIONAL
                                                   AND   -

                                           C O M M U N I T Y




     To:           Russell George, Inspector General             .

     Through: William Anderson, Deputy Chief Fin

     From:         Peg Rosenberry, Director of Grants Managem
                   Peter Heinaru, Director, AmeriCorps Statemat

     Date:         September 24,2002

      Subj:        Response to OIG Draft Audit Report 02-14: Incurred Cost Audit of
                   Grants Awarded to the Michigan Community Service Commission


      We have reviewed the draft audit report of the Michigan Community Service
      Commission grants. Due to the limited timeframe for response, we have not yet
      conducted a comprehensive review nor analyzed documentation from the
      Commission supporting the questioned costs. We will respond to all findings and
      recommendations when the audit is issued. The Michigan Commission has
      provided an extensive response and begun corrective action as needed.




1201 New York Ave., N.W. Washington, DC 20525   202-606-5000    www.nationalservice.org   A        part of
                                                                                          U SA-
                                                                                          Freedom Corps
                                Senior Corps    AmeriCorps     Learn and Serve America
                                                                                          The Presidents Call to Service
